                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 1-05-04-0016                                                                      Page 1 of 1



          OIG Office of Audits referred this matter to the Office of Investigations. During the audit of an
          NSF award1,it was discovered that the grantee2 did not obtain financial disclosure statements
          from its Principal Investigators.

          OIG asked the grantee to provide copies of all financial disclosure documents on file for two
          other awards3. The grantee stated that it had a Conflicts of Interest policy in place that requires
          financial disclosure statements, but that it was in violation of its own policy at the time of the
          audit and also for the two other awards. The grantee stated that it has since assigned the '
          responsibility of monitoring financial disclosure forms to its Resource Development office.

          Accordingly, this case is closed.




                                                                                                       I




                                                                                                       I




                                                                                                           11

NSF OIG Form 2 (1 1/02)
